                                                                                                        I
                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF JNVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

11   Case Number: 1-05-01-0004
                                                                                    11           Page 1 of 1



           We received an allegation from a complainant1that s h e was supposed to receive an NSF funded
           scholarship for approximately $2,000 per quarter. Complainant stated that s h e received award
           letters each quarter congratulating himlher on the scholarship, but s h e never actually received all
           of the scholarship money.

           Complainant provided OIG with two letters, dated Nov 21,2001 and Dec 10,2002 from the
           college, informing h i d e r that s h e was the recipient of the NSF Computer Science,
           Engineering, and Mathematics (CSEMS) scholarship in the amount of $3 125. Further
           conversation with complainant revealed that complainant was not certain whether s h e had
           received the total scholarship amount, or not.

           OIG visited the college and reviewed all of the documents regarding the CSEMS scholarships.
           CSEMS scholarships were given to 37 students during AY2001-2002,48 students during
           AY2002-2003, and 5 students during AY2003-2004. We reviewed the original cancelled checks
           for each scholarship disbursement as well as each student folder to verify the existence of official
           transcripts and award letters. OIG found no evidence that either complainant or any other'student
           did not receive the scholarship funds they were awarded.

           Accordingly, this case is closed.




I'
 NSF 01G Form 2 (1 1/02)
